           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



 KANSAS DEPARTMENT OF SOCIAL AND
      REHABLITATION SERVICES,
        AN ORGANIZATIONAL
   REPRESENTATIVE PAYEE FOR THE
  SOCIAL SECURITY ADMINISTRATION

    March 2007    A-07-07-17045




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      March 23, 2007                                                                          Refer To:

To:        Michael W. Grochowski
           Regional Commissioner
            Kansas City

From:      Inspector General

Subject:   Kansas Department of Social and Rehabilitation Services, an Organizational
           Representative Payee for the Social Security Administration (A-07-07-17045)


           OBJECTIVE

           Our objectives were to determine whether the Kansas Department of Social and
           Rehabilitation Services (SRS) (1) had effective safeguards over the receipt and
           disbursement of Social Security benefits and (2) ensured Social Security benefits were
           used and accounted for in accordance with the Social Security Administration’s (SSA)
           policies and procedures.

           BACKGROUND

           Some individuals cannot manage or direct the management of their finances because
           of their youth or mental and/or physical impairments. Congress granted SSA the
           authority to appoint representative payees to receive and manage these beneficiaries’
           payments. 1, 2 A representative payee may be an individual or an organization. SSA
           selects representative payees for Old-Age, Survivors and Disability Insurance (OASDI)
           beneficiaries or Supplemental Security Income (SSI) recipients when representative
           payments would serve the individuals’ interests. Representative payees are
           responsible for managing benefits in the best interest of the beneficiary. 3 Refer to
           Appendix B for additional Representative Payee responsibilities.




           1
             We use the term “beneficiary” generically in this report to refer to both OASDI beneficiaries and SSI
           recipients.
           2
               The Social Security Act, §§ 205(j) and 1631(a)(2), 42 U.S.C. §§ 405(j) and 1383(a)(2).
           3
               We use the term “benefits” generically in this report to refer to both OASDI benefits and SSI payments.
Page 2 - Michael W. Grochowski

SRS is a State government foster care agency that operates as an organizational
representative payee for children who received payments under SSA’s OASDI and SSI
programs. SRS contracts with third parties to provide its foster care services. For our
audit period, April 1, 2005 to March 31, 2006, SRS served as representative payee for
1,044 beneficiaries. SSA’s Kansas City Regional Office (KCRO) requested that we
perform an audit of SRS based on issues identified in previous reviews. Refer to
Appendix C for our Scope and Methodology.

RESULTS OF REVIEW
We found SRS could improve its safeguards for the receipt and disbursement of Social
Security benefits. Specifically, SRS needs to improve its internal controls for:

    •   segregation of duties, and

    •   receipt of SSA benefit payments.

We also found SRS generally used and accounted for benefits according to SSA’s
policies and procedures. SRS typically used the benefits to offset the State’s cost of
providing for the beneficiaries’ basic needs such as food, clothing, and shelter through
its contracted foster care program. However, we found SRS could improve its process
for monitoring beneficiary account balances to ensure balances do not exceed resource
limitations.

SAFEGUARDS FOR THE RECEIPT AND DISBURSEMENT OF BENEFITS

We found SRS needs to improve its internal controls for the segregation of duties and
the receipt of benefit payments. Internal controls are a major part of managing an
organization. Internal controls serve as the first line of defense in safeguarding assets
and preventing and detecting errors and fraud. The Government Accountability Office’s
(GAO) standards define the minimum level of internal control in government and
provide the basis against which internal controls are to be evaluated. 4

Segregation of Duties

SRS did not have adequate segregation of duties for the disbursement of SSA benefits.
Specifically, one SRS employee had sole responsibility for writing checks, signing
checks, recording transactions, and maintaining custody of blank checks. Furthermore,
SRS did not have any compensating controls in place to monitor this employee’s
activities, such as a supervisory review. Although we found no indications of
wrongdoing, inadequate internal controls create an opportunity for fraud, waste and
abuse of beneficiary funds.


4
 GAO, Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1 p. 7
November 1999).
Page 3 - Michael W. Grochowski

Adequate segregation of duties ensures that key duties and responsibilities are divided
or segregated among different people to reduce the risk of error or fraud. This should
include separating the responsibilities for authorizing, processing and recording,
reviewing transactions, and handling any related assets. No one individual should
                                                   5
control all key aspects of a transaction or event.

Receipt of SSA Benefit Payments

SRS did not have a process in place to properly monitor the amount of benefit
payments it should receive from SSA on the behalf of beneficiaries in its care. During
our review, we identified two SSA beneficiaries under the care of SRS whose benefit
payments continued to be sent to the previous payee. This occurred because the bank
account information was not changed in SSA’s system to reflect SRS as payee.
Specifically,

•     About $9,000 in SSI payments, for one beneficiary, was deposited into the bank
      account of the prior payee during the period of October 2005 to July 2006. SSA
      found that the benefit payments were used for purposes not related to the
      beneficiary’s care and referred the case to the Office of the Inspector General (OIG).
      Following an investigation by the OIG, the prior payee agreed to make full
                   6
      restitution.

•     Approximately $4,000 in disability insurance payments for the second beneficiary
      was deposited into the bank account of the prior payee during the period of
      November 2005 to July 2006. SSA found that the prior payee used the benefits for
      the beneficiary. No further action was taken because the beneficiary was returned
      to the prior payee’s care. 7

Since SRS did not have a process in place to properly monitor the amount of benefit
payments it should receive from SSA, neither SSA nor SRS were aware the benefits
were being deposited into the wrong bank accounts until it was discovered during our
audit. SSA relies on representative payees to provide timely notification when benefits
are not received. 8 When SSA is notified of nonreceipt of benefit payments, SSA
verifies the bank account information and takes corrective action, if necessary. 9
Therefore, SRS should have a system in place to ensure it receives the correct amount

5
 GAO, Standards for Internal Control in the Federal Government, (GAO/AIMD-00-21.3.1 p. 14
November 1999).
6
    SSA issued a collection notice to the prior payee on December 19, 2006.
7
  The prior payee was the beneficiary’s father. The father used the funds to improve the beneficiary’s
living quarters while she was in foster care.
8
 SSA sent SRS notices that indicated the amount of benefit payments and the date the payments should
be received by SRS for its beneficiaries.
9
    SSA, POMS, GN 02406.007D.
Page 4 - Michael W. Grochowski

of benefit payments from SSA on behalf of the beneficiaries under its care. In addition,
SRS should timely notify SSA when it does not receive benefit payments. However,
SSA should also remind its field office employees to update the direct deposit bank
information in its representative payee system when a change in payee occurs.

MONITORING SSI RECIPIENT ACCOUNT BALANCES

SRS allowed beneficiaries’ account balances to exceed the $2,000 maximum allowed
by law. 10 Specifically, we found 17 SSI beneficiaries in 66 separate instances had
balances over the $2,000 limit for at least 1 month during our audit period. 11 This
occurred because SRS field office employees did not apply foster care expenses to the
beneficiaries' accounts timely, which allowed balances to accumulate and exceed the
limit and/or SRS field office employees did not monitor the account balances and take
appropriate actions to spend down the funds when the balances approached the
$2,000 limit. SSA suggests that beneficiary accounts be monitored so that when
balances approach the allowable resource limit, the representative payee can assess
the personal needs, such as clothing, educational, or entertainment needs, of the
beneficiaries. Assessing and meeting personal needs will help the representative
payee maintain resources below the $2,000 limit and could improve the quality of life of
                   12
the beneficiaries.

As representative payee, SRS is responsible for using benefits in the best interest of
the beneficiaries and for reporting when the beneficiaries' resources exceed the
$2,000 limit. If SRS does not closely monitor the account balances and ensure the
benefits are used in the beneficiaries’ best interests, beneficiaries could be overpaid
and could eventually lose their SSI eligibility. 13 In fact, we found one case where SSA
terminated a severely disabled SSI recipient's eligibility because his account balance
was over $2,000 for more than 12 months. The beneficiary reapplied and is currently
receiving SSI payments. However, SSA is withholding a portion of those payments to
repay an overpayment that was created because SRS allowed the beneficiary’s
account balance to remain above the limit.

CONCLUSION AND RECOMMENDATIONS

SRS could improve internal controls for the receipt and disbursement of Social Security
benefits. Specifically, SRS needs to improve controls relating to segregation of duties
for the disbursement of benefits and monitoring the receipt of benefits to ensure

10
     20 C.F.R. § 416.1205.
11
  This has been an ongoing concern of the KCRO. As a result, KCRO held a training session for SRS
employees in October 2005. However, 22 of the 66 instances occurred after the training session.
12
     SSA, Guide for Organizational Payees – Best Practices.
13
  Only 1 of the 17 beneficiaries incurred an overpayment because SRS typically returned benefits to SSA
when it discovered an account was over the resource limit.
Page 5 - Michael W. Grochowski

payments are received when expected. SRS generally used benefits to meet the needs
of the beneficiaries. However, we found that SRS could improve its process for the
accounting and use of benefits by implementing controls to prevent beneficiary account
balances from exceeding resource limits.

We recommend SSA instruct SRS to implement controls to:

1. Ensure adequate segregation of duties are in place for the disbursement of benefits
   or implement appropriate compensating controls to monitor the disbursement of
   beneficiary funds.

2. Monitor the receipt of benefit payments and provide SSA with immediate notification
   of nonreceipt.

3. Monitor beneficiary account balances as they approach the $2,000 SSI resource
   limit and determine if the beneficiary has personal needs that should be met.

In addition, we recommend SSA:

4. Remind its field office employees to update bank account information when a
   change in representative payee occurs.

AGENCY AND REPRESENTATIVE PAYEE COMMENTS
SSA and SRS agreed with our recommendations. See Appendix D for the full text of
SSA’s comments and Appendix E for the full text of SRS’s comments.




                                           Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Representative Payee Responsibilities
APPENDIX C – Scope and Methodology
APPENDIX D – Agency Comments
APPENDIX E – Representative Payee Comments
APPENDIX F – OIG Contacts and Acknowledgments
                                                          Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
GAO      Government Accountability Office
KCRO     Kansas City Regional Office
OASDI    Old-Age, Survivor and Disability Insurance
OIG      Office of the Inspector General
POMS     Program Operations Manual System
RPS      Representative Payee System
SRS      Kansas Department of Social and Rehabilitation Services
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
                                                                        Appendix B

Representative Payee Responsibilities
Representative payees are responsible for using benefits to serve the beneficiary’s best
interests. The responsibilities include: 1

•     Determine the beneficiary’s current needs for day-to-day living and use his or her
      payments to meet those needs;

•     Conserve and invest benefits not needed to meet the beneficiary’s current needs;

•     Maintain accounting records of how the benefits are received and used;

•     Report events to the Social Security Administration (SSA) that may affect the
      individual’s entitlement or benefit payment amount;

•     Report any changes in circumstances that would affect their performance as a
      representative payee;

•     Provide SSA an annual Representative Payee Accounting Report to account for
      benefits spent and invested;

•     Return any payments to SSA for which the beneficiary is not entitled;

•     Return conserved funds to SSA when no longer serving as the representative payee
      for the beneficiary; and

•     Be aware of any other income Supplemental Security Income recipients may have
      and monitor their conserved funds to ensure they do not exceed resource limits.




1
    20 C.F.R. § 404, subpart U, and § 416, subpart F.
                                                                      Appendix C

Scope and Methodology
Our audit covered the period April 1, 2005 through March 31, 2006. To accomplish our
objectives, we:

•   Reviewed the Social Security Act, applicable Federal regulations, and Social
    Security Administration (SSA) policies and procedures pertaining to representative
    payees.

•   Contacted SSA regional office and field office staffs to obtain background
    information about the Kansas Department of Social and Rehabilitation Services’
    (SRS) performance as a representative payee.

•   Obtained from SSA’s Representative Payee System (RPS) a list of individuals who
    were in SRS’s care as of March 31, 2006 or who left SRS’s care after
    April 1, 2005.

•   Obtained from SRS a list of individuals who were in its care and had received SSA
    funds as of March 31, 2006 or who left its care after April 1, 2005.

•   Compared and reconciled the RPS list to SRS’s list to identify the population of SSA
    beneficiaries who were in the SRS’s care from April 1, 2005 through
    March 31, 2006.

•   Reviewed SRS’s internal controls over the receipt and disbursement of Social
    Security benefits.

•   Randomly selected a sample of 50 beneficiaries from a population of
    1,044 beneficiaries in SRS’s care from April 1, 2005 through March 31, 2006.

•   Performed the following tests for the 50 randomly selected beneficiaries:

    - Compared and reconciled benefit amounts received according to SRS’s records
      to benefit amounts paid according to SSA’s records.

    - Reviewed SRS’s accounting records to determine whether benefits were
      properly spent or conserved on the individual’s behalf.

    - Traced a sample of recorded expenses to source documents and examined the
      underlying documentation for reasonableness and authenticity.




                                           C-1
•   Interviewed a non-random sample of 10 beneficiaries to determine whether their
    basic needs were being met.

•   Reviewed the Representative Payee Accounting Reports for 20 of the
    50 beneficiaries in our sample to determine whether SRS properly reported to SSA
    how benefits were used.

•   Reviewed a non-random sample of five Representative Payee Applications (Form
    SSA-11-BK) to evaluate the completeness and appropriateness of the information
    provided.

We determined computer-processed data to be reliable for our intended use. We
tested certain data elements of data extracts generated from the Agency's RPS. We
completed tests to determine the completeness, accuracy and validity of the data.
These tests allowed us to assess the reliability of the data and achieve our audit
objectives.

We performed our audit in Kansas City, Missouri and Topeka, Kansas between July
and December 2006. We conducted our audit in accordance with generally accepted
government auditing standards.




                                          C-2
                                                                           Appendix D


Agency Comments

Sent:         Friday, March 02, 2007 10:50 AM



To:           Inspector General


From:         Regional Commissioner
              Kansas City


Subject:      Kansas Department of Social and Rehabilitation Services, an Organizational
              Representative Payee for the Social Security Administration (A-07-07-17045)--
              Response


Thank you and your staff for conducting the audit of the Kansas Department of Social and
Rehabilitation Services (SRS). We agree with the recommendations outlined in the formal draft
report. We will work closely with the servicing field office and the representative payee to
ensure they understand and follow these recommendations.


If you have questions, please contact me at 816-936-5700. If your staff needs additional
assistance or information they may contact Kathy Kazee, Center for Programs Support, at
816-936-5643.


                                                 /s/


                                        Michael W. Grochowski
                                Appendix E


Representative Payee Comments
E-1
E-2
E-3
E-4
E-5
                                                                       Appendix F


OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division (816) 936-5591
   Ron Bussell, Audit Manager, Kansas City, Missouri (816) 936-5577


Acknowledgments

In addition to those named above:


   Deb Taylor, Auditor-in-Charge
   Nick Moore, Auditor
   Ken Bennett, IT Specialist


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-07-07-17045.
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
Kansas Department of Social and Rehabilitation Services
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
